              Audit Report




The Social Security Administration’s
     Contract with Four, LLC




       A-04-13-13046 | August 2013
MEMORANDUM


Date:      August 27, 2013                                                    Refer To:

To:        The Commissioner
From:      Inspector General
Subject:   The Social Security Administration’s Contract with Four, LLC (A-04-13-13046)

           The attached final report presents the results of our audit. Our objectives were to (1) ensure the
           Social Security Administration (SSA) received the goods and/or services for which it contracted
           with Four, LLC and (2) review the services provided by Four, LLC and the related costs charged
           to SSA for adherence to the negotiated contract terms and applicable regulations.

           If you wish to discuss the final report, please call me or have your staff contact
           Steven L. Schaeffer, Assistant Inspector General for Audit, at (410) 965-9700.




                                                           Patrick P. O’Carroll, Jr.

           Attachment
The Social Security Administration’s Contract with Four, LLC
A-04-13-13046

August 2013                                                               Office of Audit Report Summary

Objectives                                Our Findings

To (1) ensure the Social Security         The software licenses, maintenance, and support services
Administration (SSA) received the         Four, LLC provided and costs it charged SSA adhered to the
goods and/or services for which it        contract terms. Specifically, Four, LLC provided SSA (1) the IBM
contracted with Four, LLC and             monthly license charge software the Agency needed to operate its
(2) review the services provided by       mainframe computers and process workloads and (2) access to
Four, LLC and the related costs           IBM’s software maintenance and support program for the
charged to SSA for adherence to the       Agency-owned IBM software. Further, the unit prices charged to
negotiated contract terms and             SSA agreed with the contract prices, and the quantity of services
applicable regulations.                   billed was accurate. Four, LLC submitted invoices at the beginning
                                          of the contract’s base year, and SSA made timely and accurate
Background                                payments. Finally, we determined SSA personnel properly
                                          monitored the contract.
In December 2011, SSA entered into
contract number GS-35F-0312U with         Our Conclusions
Four, LLC an authorized International
Business Machines (IBM) software          The quantity and amounts paid for software use, maintenance, and
reseller under the IBM Software Value     support were in accordance with negotiated prices, and SSA
Plus for Government Programs. Under       received the services for which it paid. The costs for products and
the agreement, Four, LLC provides         services were allowable, accurate, properly approved, and paid
IBM-licensed software and IBM             timely. Additionally, SSA personnel properly monitored the
maintenance support and software for      contract. Accordingly, we did not make any recommendations in
the Agency’s mainframe computers          this report.
and distributed computer system.

This is a 3-year fixed-price contract
with 1 base year and two, 1-year
option periods. The contract period is
December 31, 2011 through
December 30, 2014. The total contract
cost is approximately $168 million—
approximately $56 million per year.
The contract has two parts based on the
type of software SSA uses.
TABLE OF CONTENTS
Objectives ........................................................................................................................................1
Background ......................................................................................................................................1
Results of Review ............................................................................................................................2
     Monthly License Charge Software ............................................................................................2
     Software Maintenance and Support ...........................................................................................3
Conclusions ......................................................................................................................................5
Agency Comments ...........................................................................................................................5
Appendix A – Scope and Methodology ..................................................................................... A-1
Appendix B – Monthly License Charge Software Costs ........................................................... B-1
Appendix C – Agency Comments .............................................................................................. C-1
Appendix D – Major Contributors.............................................................................................. D-1




SSA’s Contract with Four, LLC (A-04-13-13046)
ABBREVIATIONS
DCS                 Distributed Computer System

GSA                 General Services Administration

IBM                 International Business Machines

IT                  Information Technology

MLC                 Monthly License Charge

MSU                 Millions of Service Units

OIG                 Office of the Inspector General

OTC                 One-Time Charge

SCRT                Sub-Capacity Reporting Tool

SSA                 Social Security Administration




SSA’s Contract with Four, LLC (A-04-13-13046)
OBJECTIVES
Our objectives were to (1) ensure the Social Security Administration (SSA) received the goods
and/or services for which it contracted with Four, LLC and (2) review the services provided by
Four, LLC and the related costs charged to SSA for adherence to the negotiated contract terms
and applicable regulations.

BACKGROUND
In December 2011, SSA entered into contract number GS-35F-0312U with Four, LLC.
Four, LLC is an authorized International Business Machines (IBM) 1 software reseller under the
IBM Software Value Plus for Government Programs. Under the agreement, Four, LLC provides
IBM-licensed software and IBM maintenance support and software for SSA’s mainframe
computers and distributed computer system (DCS). 2 This is a 3-year, fixed-price contract with
1 base year and two, 1-year option periods. The contract period is from December 31, 2011
through December 30, 2014. The total contract costs are approximately $168 million—
approximately $56 million per year. For the base year, SSA paid the contract’s entire annual
amount at the beginning of the year. The contract has two parts based on the type of software
SSA uses.

•   Monthly License Charge (MLC): Software use licenses for specific IBM software needed to
    operate and process information on SSA’s mainframe computers. SSA does not own the
    software. Rather, SSA pays an annual fee for these software licenses. The unit prices for the
    software are set forth in General Services Administration (GSA) IT Contract Schedule
    GS-35F-4984H. 3 The contracted annual cost is about $26.1 million.

•   Software Maintenance and Support: IBM provides SSA uninterrupted access to technical
    support and product upgrades for the IBM software the Agency owns. SSA pays an annual
    fee for these services. The unit prices for these services are also set forth in the GSA IT
    Contract described above. The contracted annual costs are about $29.9 million.

Four, LLC and IBM are authorized to work together through a GSA Teaming Agreement that
allows two or more GSA contractors to work together to meet the Government’s requirements.


1
 IBM provides information technology (IT) products and services worldwide and has provided computer hardware
and software for SSA’s operations since 1936.
2
 A DCS consists of multiple software components that are on multiple computers but run as a single system. The
computers in a DCS may be physically close together and connected by a local network or they can be
geographically distant and connected by a wide area network. A DCS may consist of any number of possible
configurations, such as mainframes, personal computers, workstations, and minicomputers.
3
 GSA Contract Schedules are one of the most widely used Government contract vehicles. Generally, this is a
5-year agreement under which GSA publishes a product price schedule detailing what it will pay a vendor for a
specific product or service. The GSA Contract Schedules are typically indefinite delivery and quantity contracts that
are available to Federal agencies worldwide.



SSA’s Contract with Four, LLC (A-04-13-13046)                                                                      1
Because Four, LLC has a GSA Teaming Agreement with IBM, SSA is authorized to work
directly with IBM.

SSA owns and uses eight IBM mainframe computers: four at its National Computer Center in
Baltimore, Maryland, and four at its Second Support Center in Raleigh, North Carolina. SSA’s
computer centers perform an integral role in supporting the Agency’s administration of Title II,
Title XVI, and other legislatively mandated programs. SSA uses IBM’s proprietary software to
operate the mainframe computers and process its workloads.

The Office of Telecommunication and Systems Operations is responsible for the total
telecommunications and computer processing solution for SSA. This requires state-of-the-art
software to support IT services. The acquisition and maintenance of this software is required for
the continuing operation of SSA’s nation-wide IT systems that provides the platform for

•   online applications communicated between remote field users,
•   batch programs on the mainframe systems,
•   print processes,
•   data exchange,
•   integrated network management,
•   capacity planning and performance measurement of network resources, and
•   automation and remote control of the network components.

RESULTS OF REVIEW
The software licenses, maintenance, and support services Four, LLC provided and costs it
charged SSA adhered to the contract terms. Specifically, Four, LLC provided SSA with (1) the
IBM MLC software the Agency needed to operate its mainframe computers and process
workloads on these computers and (2) access to IBM’s software maintenance and support for the
Agency-owned IBM software. Further, the unit prices Four, LLC charged to SSA agreed with
the contract prices, and the quantity of services billed was accurate. Four, LLC submitted
invoices at the beginning of the contract’s base year, and SSA made timely and accurate
payments. Finally, we determined SSA personnel properly monitored the contract.

Monthly License Charge Software
For the contract’s base year (Calendar Year 2012), SSA paid the correct costs to Four, LLC for
the millions of service units (MSU) 4 of the MLC software used. The contract estimated SSA’s
total MLCs at about $26.1 million for the base year. However, during this period, SSA’s actual


4
 An MSU is a measurement of the amount of processing work a computer can perform in 1 hour. The term is most
commonly associated with IBM mainframe computers.



SSA’s Contract with Four, LLC (A-04-13-13046)                                                              2
MLCs were about $26.4 million. Because the actual cost exceeded the estimated cost, and, in
accordance with the contract, 5 SSA paid Four, LLC $243,039 for the excess MLCs. We
concluded that SSA’s estimation of the base year MLCs was accurate, given the additional
MLCs due at the end of the base year were less than 1 percent of the contracted cost. See
Appendix B for the total MLC software, by software product, for the contract’s base year.

The contract established fixed prices for the MSU costs used to derive the MLCs. However,
SSA expects the actual amount of service units used to vary throughout the contract year,
causing its actual MLCs to be greater or less than the contract amount. According to the
contract, if SSA’s annual MLCs are less than the contract amount, the Agency is not due a
refund. However, if SSA’s annual MLCs exceed the contract amount, SSA must pay Four, LLC
for the excess costs. To avoid paying for unused MLCs, SSA attempts to underestimate its
annual MLCs when negotiating the contract. Knowing it may have excess MLCs payable at the
end of a contract year, SSA sets aside funds to pay for any excess costs. SSA negotiated the
annual MLCs based on its historical use and cost data. During the base year, SSA used almost
950,000 MSUs of licensed software.

SSA has several procedures to monitor the MLC software costs. We believe these procedures
enabled SSA staff to properly monitor the MLC software costs. SSA uses IBM’s Sub-Capacity
Reporting Tool (SCRT) software to quantify the number of MSUs for each of the IBM-licensed
software products used on each of the mainframe computers. SSA prices the MSUs and
determines the MLCs with its own software applications. Additionally, SSA has a contract 6 with
an outside consultant who verifies the accuracy of the SCRT results. Each month, SSA reports
its MLCs to Four, LLC, which must confirm their accuracy with SSA. Generally Four, LLC
agrees with SSA’s MLCs. When variances occur, they work together to reconcile the
differences.

Software Maintenance and Support
In the contract’s base year, SSA paid Four, LLC the correct amount for IBM’s maintenance and
support of the Agency-owned IBM software, which SSA uses to process workloads on its
mainframe computers and DCS. This maintenance and support service is for IBM’s Passport
Advantage service program (distributed software) and one-time charge (OTC) mainframe
software. SSA paid about $29.9 million for this service. The annual fee provides SSA with
access to IBM technical support and software version upgrades at no charge.

Passport Advantage is IBM’s service program to manage the maintenance and support for
specific IBM-licensed software whose ownership has transferred to the purchaser—SSA.
Table 1 details the number of software programs used, number of licenses, and total cost of the


5
  IBM, Federal Enterprise Software and Services Option, Section 5 – Eligible Use of Programs, included as part of
the contract (GS-35F-0312U).
6
 SSA obtained the consultant’s services via Solicitation/Contract/Order for Commercial Item, Requisition
Number 3318-11-0982, and Order Number SS00-11-50094.



SSA’s Contract with Four, LLC (A-04-13-13046)                                                                       3
maintenance and support for SSA’s IBM-owned software managed under the Passport
Advantage service program.

Table 1: Software Managed Under the Passport Advantage Service Program—Base Year
                                                                                Percent of
    Number of           Number of           Value of       Total Cost of
                                                                             Maintenance and
   Unique Types          Software           Software       Maintenance
                                                                             Support to Value
    of Software          Licenses           Licenses       and Support
                                                                               of Licenses
         101              300,318          $89,496,899      $17,777,787            19.9

OTC software is SSA-owned, non-operating system software that resides on the mainframe
computers and is used by SSA to process various workloads. SSA does not pay MLCs for this
software. Rather, SSA purchases the software maintenance and support annually. Table 2
details the number of different types of software used, number of licenses, and total cost of the
maintenance and support for SSA’s IBM-owned OTC software.

                Table 2: OTC Software—Mainframe Computers—Base Year
                                                                                Percent of
    Number of           Number of                          Total Cost of
                                                Value of                     Maintenance and
   Unique Types          Software                          Maintenance
                                                Licenses                     Support to Value
    of Software          Licenses                          and Support
                                                                               of Licenses
          21               34,640          $72,566,869      $12,093,776            16.7

SSA bases the number of licenses it owns for a particular software product on the mainframe
computer’s processing speed and the number of processes the mainframe makes using the
software. The number of licenses owned and subject to the maintenance and support fees was
determined as part of the contract negotiations, based on both IBM and SSA’s records.

SSA has procedures for monitoring software problems. Specifically, SSA’s IT staff who
encounter software problems report them to the Agency’s Help Desk. IT staff logs Help Desk
requests into SSA’s automated Change, Asset, and Problem Reporting System, which enables
SSA to monitor software problems from the help request through resolution. SSA’s IT staff,
which works to ensure software operates as needed, has a critical role in resolving software
problems. IT staff experiencing problems with software covered under IBM’s Passport
Advantage service program must also request technical assistance through IBM’s online
customer support service designed for this program. Staff may then work directly with IBM
technical support staff to resolve problems. For OTC mainframe software problems, SSA staff
contact specific IBM or Four, LLC software specialists for technical assistance.




SSA’s Contract with Four, LLC (A-04-13-13046)                                                       4
IBM informs SSA of all software upgrades available under the maintenance and support
agreement. SSA’s staff is responsible for ensuring the upgrade is completed and the software is
operating as needed. Depending on the software, staff can complete some upgrades in less than
1 day. Whereas complex upgrades may require significant SSA resources and must be planned
months in advance. For example, an upgrade to major mainframe operating or data processing
software requires the expertise and efforts of many SSA staff members. SSA staff works with
IBM or Four, LLC software specialists to plan and complete the installation of the software
upgrade. SSA staff, along with IBM or Four, LLC staff then tests the upgrade to ensure the
software is operating properly.

CONCLUSIONS
The quantity and amounts paid for software usage and software maintenance and support were in
accordance with negotiated prices, and SSA received the services for which it paid. The costs
for products and services were allowable, accurate, properly approved, and paid timely.
Additionally, SSA personnel properly monitored the contract. Accordingly, we did not make
any recommendations in this report.

AGENCY COMMENTS
SSA reviewed the draft report but did not provide any comments (see Appendix C).




SSA’s Contract with Four, LLC (A-04-13-13046)                                                     5
                                      APPENDICES




SSA’s Contract with Four, LLC (A-04-13-13046)
Appendix A – SCOPE AND METHODOLOGY
To accomplish our objectives, we reviewed the contract costs for the base year—
December 31, 2011 through December 30, 2012. The total costs of the base year were
approximately $56 million, which consisted of about $26.1 million for monthly license charges
and $29.9 million for software maintenance and support. We reviewed 100 percent of the
monthly license charges and 100 percent of the software support and maintenance charges.

We also:

•   Reviewed the contract between the Social Security Administration (SSA) and Four, LLC—
    contract number GS-35F-0312U.

•   Reviewed the applicable sections of the Federal Acquisition Regulation.

•   Reviewed the Systems Procurement Request for Maintenance and Support Services for
    International Business Machines (IBM) proprietary software.

•   Interviewed the Contracting Officer’s Technical Representative.

•   Obtained a list of invoices paid under this contract. We reviewed these invoices to ensure
    SSA (1) paid amounts approved in the contract, (2) properly approved invoices before
    payment, (3) paid invoices timely in accordance with the terms of the contract, and
    (4) correctly recorded invoice amounts.

•   Verified contract unit prices to the applicable General Services Administration’s Contract
    Price Schedule.

•   Reviewed SSA’s Monthly License Charge reports.

•   Verified the number of IBM licenses owned to IBM’s records and SSA’s records.

We conducted our audit between August 2012 and May 2013 in Atlanta, Georgia. We
determined the data used for this audit were sufficiently reliable to meet our audit objectives.
The principal entity audited was the Office of Telecommunication and Systems Operations under
the Office of the Deputy Commissioner for Systems. We conducted this performance audit in
accordance with generally accepted government auditing standards. Those standards require that
we plan and conduct the audit to obtain sufficient, appropriate evidence to provide a reasonable
basis for our findings and conclusions based on our audit objectives.




SSA’s Contract with Four, LLC (A-04-13-13046)                                                    A-1
Appendix B – MONTHLY LICENSE CHARGE SOFTWARE COSTS
   Total Monthly License Charges by Software Product—Base Year
                                  Software Name                 Cost
                    Operating System Software
                     1 z/OS V1 Base                           $4,848,669
                     2 z/OS V1 DFSMS dsshsm                      476,986
                     3 z/OS V1 JES3                              412,025
                     4 z/OS V1 RMF                               272,552
                                                  Subtotal    $6,010,232
                    Database Software
                     1 DB2 V10 for z/OS                       $6,531,760
                     2 DB2 V9 for z/OS (no longer in use)        259,843
                     3 QMF Classic Edition                     2,160,991
                                                  Subtotal    $8,952,594
                    Network Support Software
                     1 CICS Transaction Server for z/OS       $6,207,095
                     2 WS MQ Base for z/OS                     2,621,097
                     3 Tivoli NetView for z/OS                 1,813,149
                     4 WS MQ Client Attachment                   277,305
                                                  Subtotal   $10,918,646
                    Computer Language Software
                     1 COBOL 4                                 $151,419
                     2 COBOL Alternate Function                  95,480
                                                  Subtotal     $246,899
                    Other Software
                     1 Monthly Flat Fee Software                $289,264
                                                     Total   $26,417,635




SSA’s Contract with Four, LLC (A-04-13-13046)                              B-1
Appendix C – AGENCY COMMENTS

August 16, 2013

Subject: Audit No. 22012077 (A-04-13-13046) - OIG Draft Report, "The Social Security
         Administration's Contract with Four, LLC"

Steve,

Thank you for the opportunity to review the Office of the Inspector General draft report, The
Social Security Administration’s Contract with Four, LLC. We agree with the report as written
and offer no comments.

Please let me know if you have any questions.

Tina

Tina M. Waddell
Assistant Deputy Commissioner
  for Budget, Finance and Management




SSA’s Contract with Four, LLC (A-04-13-13046)                                              C-1
Appendix D – MAJOR CONTRIBUTORS
Theresa Roberts, Acting Director, Atlanta Audit Division

Frank Nagy, Audit Manager

Lisa Swanson, Senior Auditor




SSA’s Contract with Four, LLC (A-04-13-13046)              D-1
                                           MISSION
By conducting independent and objective audits, evaluations, and investigations, the Office of
the Inspector General (OIG) inspires public confidence in the integrity and security of the Social
Security Administration’s (SSA) programs and operations and protects them against fraud,
waste, and abuse. We provide timely, useful, and reliable information and advice to
Administration officials, Congress, and the public.


                                   CONNECT WITH US
The OIG Website (http://oig.ssa.gov/) gives you access to a wealth of information about OIG.
On our Website, you can report fraud as well as find the following.
   •   OIG news                                  In addition, we provide these avenues of
   •   audit reports
                                                 communication through our social media
                                                 channels.
   •   investigative summaries
   •   Semiannual Reports to Congress                Watch us on YouTube
   •   fraud advisories                              Like us on Facebook
   •   press releases
                                                     Follow us on Twitter
   •   congressional testimony
   •   an interactive blog, “Beyond The              Subscribe to our RSS feeds or email updates
       Numbers” where we welcome your
       comments


                          OBTAIN COPIES OF AUDIT REPORTS
To obtain copies of our reports, visit our Website at http://oig.ssa.gov/audits-and-
investigations/audit-reports/all. For notification of newly released reports, sign up for e-updates
at http://oig.ssa.gov/e-updates.


                          REPORT FRAUD, WASTE, AND ABUSE
To report fraud, waste, and abuse, contact the Office of the Inspector General via
   Website:        http://oig.ssa.gov/report-fraud-waste-or-abuse
   Mail:           Social Security Fraud Hotline
                   P.O. Box 17785
                   Baltimore, Maryland 21235
   FAX:            410-597-0118
   Telephone:      1-800-269-0271 from 10:00 a.m. to 4:00 p.m. Eastern Standard Time
   TTY:            1-866-501-2101 for the deaf or hard of hearing
